RECENEL)
NOV 0 5 2019

No.

OFFICE OF THE CLERK
SUPREME COURT U.S.

IN THE
SUPREME COURT OF THE UNITED STATES
GUAM, GUAM ELECTION COMMISSION, ALICE M. TAIJERON,
MARTHA C. RUTH, JOSEPH F. MESA, JOHNNY P. TAITANO,
JOSHUA F. TENORIO, DONALD I. WEAKLEY
and LEONARDO M. RAPADAS.
Applicants,
v.
ARNOLD DAVIS, on behalf of himself and all
Others similarly situated.
Respondent.

CERTIFICATE OF SERVICE

To the Honorable Elena Kagan
Associate Justice of the United States Supreme Court
and Circuit Justice for the Ninth Circuit

MICHAEL F. PHILLIPS, ESQ.
Counsel of Record for Applicants
PHILLIPS & BORDALLO, P.C.
410 WEST O'BRIEN DRIVE
HAGATNA, GUAM 96910
(671) 477-2223
October 28, 2019

ORIGINAL

As required by Supreme Court Rule 29, I, Michael F. Phillips, hereby certify
that on the 28th day of October, 2019, I caused copies of Applicant's Application for
Extension of Time to File Petition for Writ of Certiorari; and Certificate of Service;
in the above-captioned matter to be served via U.S. Postal Service or Hand
Delivery, as applicable, on the offices of:
Scott P. Martin
Gibson, Dunn and Crutcher LLP
Counsel on Appeal
1050 Connecticut Avenue, N.W.
Washington, DC 20036

J. Christian Adams
Election Law Center, PLLC
300 N. Washington St., Suite 405
Alexandria, VA 22314
Counsel for Arnold Davis

Lead Counsel for Arnold Davis
Michael E. Rosman
Center for Individual Rights
1100 Connecticut Ave., NW
Suite 625
Washington, DC 20036

Mun Su Park
Law Offices of Park and Associates
Suite 102, Isla Plaza
388 South Marine Corps Drive
Tamuning, Guam 96913

Counsel for Arnold Davis

Counsel for Arnold Davis

Kenneth D. Orcutt
Office of the Attorney General
590 S. Marine Corps Drive Ste 706
Tamuning, Guam 96913

Julian James Aguon
Blue Ocean Law, P.C.
Ste. 216 Terlaje Professional Bldg.
194 Hernan Cortez Avenue
Hagatna, Guam 96910

Counsel for Guam, Guam Election
Martha C. Ruth, Joseph F. Mesa,
Counsel for Anne Perez Hattori
Johnny P. Taitano, Joshua F. Tenorio,
Donald I. Weakley and Leonardo M.
Rapadas
Respectfully submitted this 28th day of October, 2019.
PHILLIPS & B
Counsel of Reg

DALLO, P.C.
fo Applicants

By:
MICHAEL

ILLIPS

